Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL





 OVERSIGHT OF QUALITY OF 

CARE IN MEDICAID HOME AND 

COMMUNITY-BASED SERVICES 

    WAIVER PROGRAMS





                    Daniel R. Levinson

                     Inspector General


                       June 2012 

                     OEI-02-08-00170 

EXECUTIVE SUMMARY: OVERSIGHT OF QUALITY OF CARE IN MEDICAID HOME
AND COMMUNITY-BASED SERVICES WAIVER PROGRAMS
OEI-02-08-00170

WHY WE DID THIS STUDY

In recent years, States have altered their approach to providing Medicaid-funded long-term care
services. Rather than providing the majority of that care in institutions—such as nursing homes—
States are now providing more care in homes and other community-based settings. States most
often provide this care through 1915(c) home and community-based services (HCBS) waiver
programs, and the individuals served by these programs are most commonly disabled and over age
65. In fiscal year 2010, Medicaid expenditures for HCBS waiver programs serving this population
totaled an estimated $8.9 billion. Strong oversight of waiver programs is critical to ensuring the
quality of care provided to HCBS beneficiaries. The beneficiaries who rely on HCBS waiver
programs are among Medicaid’s most vulnerable, and the nature of these programs puts them at
particular risk of receiving inadequate care.

HOW WE DID THIS STUDY

States must operate their HCBS waiver programs in accordance with certain “assurances,” including
three assurances related to quality of care. To meet these assurances, States must demonstrate that
they have systems to effectively monitor the adequacy of service plans, the qualifications of
providers, and the health and welfare of beneficiaries. We based this study on a review of
documents from the Centers for Medicare & Medicaid Services’ (CMS) most recent quality review
of waiver programs from 25 States, as well as information gathered from structured interviews with
staff from the 10 CMS regional offices.

WHAT WE FOUND

Seven of the twenty-five States that we reviewed did not have adequate systems to ensure the
quality of care provided to beneficiaries. Although CMS renewed the waiver programs in all seven
of these States, three did not adequately correct identified problems. Not only did these States fail
to correct these problems before renewal of their programs, they also had still not adequately
addressed the problems long after renewal. In addition, CMS did not consistently use the few tools
it has to ensure that States correct problems related to quality of care.

WHAT WE RECOMMEND

We recommend that CMS: (1) provide additional guidance to States to help ensure that they meet
the assurances, (2) require States that do not meet one or more assurances to develop corrective
action plans, (3) require at least one onsite visit before a waiver program is renewed and develop
detailed protocols for such visits, (4) develop a broader array of approaches to ensure compliance
with each of the assurances, and (5) make information about State compliance with the assurances
available to the public. CMS concurred with four of the recommendations and partially concurred
with our recommendation to require onsite visits.
.


     TABLE OF CONTENTS

     Objectives ....................................................................................................1 

     Background..................................................................................................1 

     Methodology................................................................................................6 

     Findings .......................................................................................................9 

                Seven of the twenty-five States did not have adequate systems 

                to ensure the quality of care provided to beneficiaries ....................9 

                CMS renewed the waiver programs of three States that did not 

                adequately correct problems related to quality of care ..................11

                CMS did not consistently use the few tools it has to ensure that               

                States correct problems related to quality of care ..........................12 

     Conclusion and Recommendations ............................................................14 

                Agency Comments and Office of Inspector General Response ....16 

     Appendix: Agency Comments ..................................................................17 

     Acknowledgments .....................................................................................20 

                  OBJECTIVES
                  1.	 To determine the extent to which States had systems to ensure the
                       quality of care provided to beneficiaries in home and
                       community-based services (HCBS) waiver programs for the aged
                       and/or disabled.
                  2.	 To determine the extent to which the Centers for Medicare & Medicaid
                       Services (CMS) renewed waiver programs in States that did not
                       adequately correct problems related to quality of care.
                  3.	 To describe how CMS oversees States’ efforts to ensure the quality of
                       care provided under these waiver programs.

                  BACKGROUND
                  In recent years, States have altered their approach to providing
                  Medicaid-funded long-term care services. Rather than providing the majority
                  of that care in institutions—such as nursing homes—States are now providing
                  more care in homes and other community-based settings. States most often
                  provide this care through 1915(c) HCBS waiver programs, and the individuals
                  served by these programs are most commonly disabled and over age 65.1 In
                  fiscal year 2010, Medicaid expenditures for HCBS waiver programs serving
                  this population totaled an estimated $8.9 billion.2
                  Strong oversight of waiver programs is critical to ensuring the quality of care
                  provided to beneficiaries. The beneficiaries served by these programs are
                  among Medicaid’s most vulnerable, and the nature of these programs puts
                  beneficiaries at particular risk of receiving inadequate care. Some programs
                  allow beneficiaries to be cared for by individuals with limited professional
                  training, such as family members and neighbors. In addition, beneficiaries may
                  receive care in their homes, isolated from observers who might detect and
                  prevent abuse or mistreatment.


                  1
                     Kaiser Commission on Medicaid and the Uninsured. Medicaid Home and Community-
                  Based Services Programs: Data Update, pp. 3-4. Accessed at
                  http://www.kff.org/medicaid/upload/7720-05.pdf on May 18, 2012. See also Kaiser
                  Commission on Medicaid and the Uninsured and the University of California at San
                  Francisco, Medicaid 1915(c) Home and Community-Based Service Waiver Participants, by
                  Type of Waiver, 2008 Accessed at
                  http://www.statehealthfacts.org/comparetable.jsp?ind=241&cat=4 on April 16, 2011. For
                  background information on section 1915(c) of the Social Security Act, see footnotes 5, 6, and
                  7.
                  2
                    Preliminary findings from Thomson Reuters, Medicaid 1915(c) Waiver Expenditures:
                  2011 Update, Table 3, October 2011.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)      1
                  Federal agencies have raised concerns about the quality of care provided under
                  these waiver programs. Most notably, in 2003, the Government Accountability
                  Office found that more than 70 percent of the programs it reviewed had
                  problems with quality of care, such as failure to provide necessary services,
                  weaknesses in beneficiaries’ service plans, and inadequate case management.3
                  Further, in 2009, CMS found quality-of-care problems in Alaska’s waiver
                  programs and took the unprecedented step of placing a moratorium on
                  enrollment in those programs, along with requiring a range of corrective
                  actions.4
                  Medicaid Coverage for Home and Community-Based Services
                  In 1981, Congress significantly expanded the availability of HCBS by
                  offering States the option of establishing Medicaid 1915(c) HCBS waiver
                  programs.5 The HCBS waiver authority permits States to waive certain
                  Medicaid requirements to provide a wide range of services to persons who
                  otherwise would receive institutional care.6
                  Each waiver program must serve individuals from one of the following three
                  groups: persons who are aged (65 or older) and/or disabled, persons with
                  intellectual and/or developmental disabilities, and persons with mental
                  illnesses.7 As noted earlier, the majority of beneficiaries fall into the first
                  group, with over 674,000 aged and/or disabled beneficiaries receiving




                  3
                    General Accounting Office (now the Government Accountability Office), GAO-03-576,
                  Long-term Care: Federal Oversight of Growing Home and Community-Based Waivers
                  Should Be Strengthened, June 20, 2003.
                  4
                    CMS Regional Office Letter to State Medicaid Agency Director, June 26, 2009,
                  Re: Preliminary Observations, Findings and Required Corrective Actions, p.1. Accessed at
                  http://www.hss.state.ak.us/dsds/cmsreview/AK_HCBS_Review_Preliminary_Letter_06-26­
                  09.pdf on July 23, 2009.
                  5
                   This program was established under section 1915(c) of the Social Security Act, added by the
                  Omnibus Budget Reconciliation Act of 1981, P.L. 97-35 § 2176.
                  6
                    Under § 1915(c), CMS may waive the following Medicaid requirements:
                  (1) Statewideness—States may cover services in only a portion of the State, rather than in all
                  geographic jurisdictions; (2) comparability of services—States may limit HCBS waiver
                  services to individuals in State-selected target groups who require an institutional level of
                  care; and (3) certain financial eligibility requirements—States may use more liberal income
                  requirements for persons receiving HCBS. See Social Security Act 1915(c)(3); CMS,
                  Application for a § 1915 (c) Home and Community-Based Waiver [Version 3.5]: Instructions,
                  Technical Guide and Review Criteria, pp. 5-6 (January 2008).
                  7
                    Waiver programs for the aged and/or disabled provide assistance to individuals over age 65
                  and to those with physical or other disabilities under age 65. Such programs would not serve
                  persons from the other two groups, i.e., those who are intellectually or developmentally
                  disabled or those who are mentally ill. See 42 CFR § 441.301(b)(6).




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)       2
                  services in 2008.8 Under these programs, States may provide a wide range
                  of services—such as case management services, homemaker services, and
                  personal care services—in a home or community-based setting for people
                  who are eligible for institutional care.9
                  Federal Requirements Related to Quality of Care
                  States must operate their waivers in accordance with certain “assurances”
                  identified in Federal regulations.10 CMS has designated six waiver
                  assurances that States must include as part of an overall quality
                  improvement strategy.11 Three of these assurances address Federal
                  requirements related to the quality of care provided by waiver programs.12
                  These requirements state that each beneficiary must have a written service
                  plan based on an assessment of the individual’s needs,13 each beneficiary
                  must be served by qualified providers,14 and States must have necessary
                  safeguards to protect the health and welfare of beneficiaries.15 CMS
                  guidance describes how States are to meet the three quality-of-care
                  assurances.16
                  Before 2004, CMS determined whether States were meeting these
                  assurances by conducting a review of a small sample of beneficiaries at
                  least once during the life of the waiver program. In 2004, CMS
                  transferred the primary responsibility for monitoring waiver programs to
                  the States.17 Currently, States are responsible for monitoring the quality of
                  their own programs and for developing their own systems to continuously


                  8
                    Kaiser Commission on Medicaid and the Uninsured and the University of California at San
                  Francisco, Medicaid 1915(c) Home and Community-Based Service Waiver Participants, by
                  Type of Waiver, 2008. Accessed at
                  http://www.statehealthfacts.org/comparetable.jsp?ind=241&cat=4 on February 6, 2012.
                  9
                    42 CFR § 440.180(b).
                  10
                       42 CFR § 441.301 and 302.
                  11
                     CMS, Application for a § 1915(c) Home and Community-Based Waiver [Version 3.5]:
                  Instructions, Technical Guide and Review Criteria, pp. 9-10 (2008).
                  12
                     The other three assurances relate to verifying that beneficiaries meet level-of-care
                  requirements, having administrative authority for the operation of the waiver, and ensuring
                  financial accountability of the waiver program.
                  13
                     42 CFR § 441.301(b)(1)(i). Federal regulations use the term “plan of care,” while CMS
                  guidance uses the term “service plan.” In this report, we use the term “service plan.”
                  14
                       42 CFR § 441.302(a)(1) and (2).
                  15
                       42 CFR § 441.302(a).
                  16
                     CMS, Application for a § 1915(c) Home and Community-Based Waiver [Version 3.5]:
                  Instructions, Technical Guide and Review Criteria, pp. 9-10 (2008).
                  17
                       CMS, Interim Procedural Guidance for Assessing HCBS Waivers (2004).




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)    3
                  monitor whether the State is meeting the assurances. CMS also expects
                  States to have strategies to correct any problems uncovered by their
                  monitoring systems.
                  The three quality-of-care assurances are as follows:
                  	 Service Plans. For the service plan assurance, CMS requires each
                     State to demonstrate that it has an adequate system for reviewing the
                     service plans for beneficiaries in waiver programs.18 Such a system
                     should ensure that the State periodically reviews plans to make sure
                     that all beneficiaries’ needs are addressed and that their preferences are
                     considered. CMS also requires each State to submit evidence
                     illustrating its process for ensuring that beneficiaries actually receive
                     the services listed in their plans.
                  	 Qualified Providers. For the qualified provider assurance, CMS requires
                     each State to demonstrate that it has designed and implemented an
                     adequate system for ensuring that all waiver services are rendered by
                     qualified providers.19 Each State must periodically verify that all of its
                     providers meet its licensing and certification requirements, as well as any
                     additional requirements for nonlicensed and noncertified providers
                     established in the waiver application.
                  	 Health and Welfare. For the health and welfare assurance, CMS requires
                     each State to demonstrate on an ongoing basis that it is able to identify,
                     address, and seek to prevent instances of abuse, neglect, and
                     exploitation.20 When such instances are identified, CMS requires the
                     State to take appropriate action and to look for any trends in
                     implementing prevention strategies.
                  Oversight of HCBS Waiver Programs
                  CMS set forth its requirements and procedures for oversight of State waiver
                  program operations in guidance documents issued to the States.21 In
                  accordance with CMS’s guidance, States first submit waiver applications to
                  CMS describing the systems they will use to meet each of the assurances.

                  18
                    CMS, Updated Interim Procedural Guidance for Conducting Quality Reviews of Home and
                  Community-Based Services (HCBS) Waiver Programs, pp. 15-16 (February 6, 2007).
                  19
                       Ibid, p. 17.
                  20
                       Ibid, p. 18.
                  21
                     Oversight activities described in this section are found in two CMS guidance documents:
                  Instructions, Technical Guide and Review Criteria for Applications for a § 1915(c) Home and
                  Community-Based Waiver [Version 3.5] (January 2008), and Updated Interim Procedural
                  Guidance for Conducting Quality Reviews of Home and Community-Based Services (HCBS)
                  Waiver Programs (February 6, 2007).




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)    4
                  States must describe the types of data they will collect, as well as their plans
                  for correcting any identified problems. Data collection can include
                  beneficiary surveys or onsite visits. It can also include record reviews to
                  determine whether all services were delivered in accordance with
                  beneficiaries’ service plans. If CMS determines that these systems are
                  adequate and the waiver application meets applicable Federal requirements,
                  the waiver program is approved for 3 to 5 years.22
                  To determine whether States meet the required assurances, CMS regional
                  office staff conduct quality reviews in which CMS requests that each State
                  provide evidence from its monitoring systems. This evidence should include
                  summaries of data collected, as well as any actions taken by the State to
                  correct the problems found by its monitoring systems.23
                  After examining the evidence submitted by the State, CMS determines
                  whether the State has met each assurance. CMS provides this information to
                  the State in a report that summarizes CMS’s findings and conclusions about
                  the State’s compliance with the assurances. CMS may also include in the
                  report recommendations to correct any problems identified during the
                  review. To give the State enough time to correct any problems, CMS sends
                  the report at least a year before the expiration of the State’s waiver program.
                  Generally a year after the quality review, the State submits an application to
                  CMS to renew the waiver program. CMS guidance states that before the
                  agency can approve a program for renewal, it must be confident that the
                  measures the State has taken or plans to take will correct the problems.
                  If a State does not correct quality-of-care problems, CMS may require the
                  State to develop and implement a corrective action plan.24 CMS may require
                  such a plan after the State fails to meet one or more assurances during the
                  quality review or at the time of the program’s renewal. As part of this plan,
                  each State is expected to specify target dates to address any unmet
                  recommendations and to submit additional evidence illustrating that it has
                  corrected identified problems.




                  22
                     The initial waiver is for 3 years. Each renewal of the waiver is for 5 years. See
                  42 U.S.C. § 1396n(c)(3) and 42 CFR § 430.25(h)(2)(i).
                  23
                     Note that CMS guidance refers to this process as “discovery and remediation.” See
                  Instructions, Technical Guide and Review Criteria for Applications for a § 1915(c) Home and
                  Community-Based Waiver [Version 3.5], p. 10 (January 2008).
                  24
                     For the purposes of this report, we use the term “corrective action plan” to mean any plan
                  that CMS requires a State to develop so as to correct problems found in a waiver program.
                  CMS generally refers to such plans as either “corrective action plans” or “work plans.”




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)      5
                  In addition, CMS recommends that its regional offices conduct an onsite
                  review of each waiver program at least once before the program’s renewal.
                  The regional offices may also conduct focused onsite reviews of programs
                  that are not meeting all of the assurances. These focused onsite visits
                  address particular problems that CMS has identified and may not include an
                  assessment of all areas. CMS also has the authority to terminate a program
                  that is not meeting one or more assurances.25
                  Related Reports
                  The Office of Inspector General (OIG) will issue a report on HCBS provided
                  in assisted living facilities (ALFs).26 That evaluation determines the extent
                  to which States comply with Federal waiver requirements for ALFs.

                  METHODOLOGY
                  Data Collection and Analysis
                  We based this study on two data sources: (1) a review of documentation for
                  HCBS waiver programs, and (2) structured interviews with CMS staff from
                  the 10 regional offices.
                  Scope
                  To provide the most current assessment of the waiver programs and CMS’s
                  review process, we focused on the States that had 1915(c) HCBS waiver
                  programs for the aged and/or disabled that were reviewed under CMS’s most
                  recent guidance. Specifically, we reviewed programs for which: (1) CMS
                  had performed its quality review using the most recent guidance, which was
                  updated in February 2007; and (2) the State had applied for renewal using
                  the most recent version of the application, which was updated in
                  January 2008. We identified 33 waiver programs that were administered by
                  25 States.27
                  Data Collection
                  Review of Documentation. We requested documentation from the CMS
                  regional office responsible for each of these waiver programs. This
                  documentation spanned from December 2006 through February 2011.
                  Specifically, we requested:
                  (1) evidence that each State provided to CMS for the quality review
                      regarding the three assurances. This was usually summarized evidence

                  25
                       42 CFR § 441.304(d).
                  26
                    OIG, Home and Community-Based Services in Assisted Living Facilities, 

                  OEI-09-08-00360, forthcoming.

                  27
                       In 2009, 110 waiver programs for the aged and/or disabled were in operation. 





Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   6
                        of the different elements of the State’s monitoring systems, such as
                        beneficiary survey results, quarterly reports of home visits, and provider
                        training attendance logs.
                  (2)	 documents from CMS’s most recent quality review of each State,
                       including the findings report. This report typically includes a detailed
                       description of the State’s monitoring systems and of instances in which
                       CMS found that evidence of these systems was inadequate or lacking.
                       It also includes CMS’s determination of whether the State met each
                       assurance.
                  (3)	 documents from any CMS-conducted onsite visits of the State.
                  (4)	 documents about any followup activities that were conducted by CMS
                       or the State after the quality review was completed, including any
                       updates on corrective actions taken by the State.
                  (5)	 CMS’s assessment of the renewal application, including any documents
                       that the State submitted in response to CMS’s inquiries during the
                       review of the application.
                  Interviews with CMS regional officials. We conducted structured
                  interviews—either in person or over the telephone—with CMS officials
                  from the 10 regional offices. We discussed the quality review process and
                  the evidence that States submitted to demonstrate that they met each
                  assurance. In addition, we asked about how officials ensure that the States
                  met the assurances, including how they use corrective action plans and
                  onsite visits. Finally, we asked for additional information, where necessary,
                  to corroborate and supplement the information from our documentation
                  review.
                  Analysis
                  To describe States’ monitoring systems to ensure the quality of care provided
                  to beneficiaries, we reviewed the documents from CMS’s most recent
                  quality review of each State’s programs as well as the information gathered
                  from our interviews. We conducted this analysis by State, rather than by
                  program, because the States are responsible for ensuring that their programs
                  meet the assurances. 28 We considered a State to have met an assurance if
                  CMS determined in its report that “[t]he State substantially meets the
                  assurance” or “[t]he State demonstrates the assurance but CMS recommends
                  improvements.” Conversely, we considered a State to be out of compliance
                  with an assurance if CMS determined that “[t]he State does not fully or


                  28
                     Of the 25 States, 19 States had 1 waiver program, 5 States had 2 waiver programs, and
                  1 State had 4 waiver programs.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   7
                  substantially demonstrate the assurance” or “[t]he State does not
                  demonstrate the assurance.”29 We also analyzed the data to identify practices
                  of States that met the assurances. These data are generally not available to
                  the public. We conducted this analysis in order to describe the differences
                  among States’ monitoring systems, as well as to describe the types of
                  problems generally identified by CMS.
                  To determine the extent to which CMS renewed waiver programs for States
                  in which the quality reviews found that one or more assurances were not
                  met, we reviewed CMS documents about any followup activities between
                  CMS and the States and the information gathered from the interviews. We
                  then determined how many of these States had still not corrected problems
                  (1) at the time of renewal and (2) as of early 2011.
                  To determine the extent to which CMS used existing tools to ensure
                  compliance with the assurances, we reviewed CMS documents and interview
                  data. We determined whether CMS officials required States that did not
                  meet one or more of the assurances to develop corrective action plans and
                  whether CMS officials conducted any onsite visits or focused onsite visits
                  with these States.
                  Limitations
                  We did not independently assess the accuracy of CMS’s determinations
                  about whether States met the three assurances. In addition, our findings
                  cannot be generalized to the other States or their waiver programs.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  29
                     CMS guidance instructs staff responsible for conducting quality reviews to select one of
                  these four categories when determining whether a waiver program meets each assurance. See
                  CMS, Updated Interim Procedural Guidance for Conducting Quality Reviews of Home and
                  Community-Based Services (HCBS) Waiver Programs, pp. 28-30 (February 6, 2007).




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)    8
                  FINDINGS
                  Seven of the twenty-five States did not have adequate
                  systems to ensure the quality of care provided to
                  beneficiaries
                  As previously noted, States must meet three assurances designed to protect
                  beneficiaries and ensure the quality of care they receive under the waiver
                  programs. States must develop and implement their own monitoring
                  systems to ensure that they meet each of these assurances. CMS determines
                  whether a State meets each assurance by conducting a quality review. When
                  a State does not demonstrate that it meets one or more assurances during the
                  quality review, the State is unable to ensure the quality of care provided to
                  beneficiaries.
                  During its quality reviews, CMS found that 7 of the 25 States did not meet
                  1 or more of the 3 quality-of-care assurances for 1 of their waiver programs.
                  In these cases, the States did not have adequate monitoring systems to ensure
                  quality of care. Three of these seven States did not meet any of the
                  assurances.
                  Six States did not meet the service plan assurance
                  A monitoring system for service plans should ensure that the State
                  periodically reviews plans to ensure that beneficiaries’ needs are addressed.
                  States must also have systems to verify that beneficiaries actually received
                  the services listed in their plans and that all plans have been assessed and
                  updated at least annually. Without adequate monitoring systems, States may
                  not be able to ensure that the services that they are paying for are actually
                  provided and that beneficiaries are receiving all of the services they need.
                  CMS found that six States did not have adequate systems to monitor service
                  plans. Notably, one State had no method for determining whether services
                  were provided according to beneficiaries’ service plans. As one CMS
                  official noted, “Some States really have no monitoring systems [for service
                  plans] at all.” Four States did not review an adequate sample of service
                  plans to ensure that all plans were assessed and updated. CMS allows States
                  to monitor program performance by evaluating the entire population, if it is
                  small enough, or by evaluating a sample of the population. If the sample is
                  not representative of all beneficiaries’ service plans, the State cannot claim
                  that it adequately monitors service plans, and CMS cannot conclude that the
                  State complies with the service plan assurance.
                  Additionally, CMS found that four States had inadequate strategies to correct
                  problems found in the service plans. For example, one of these States
                  discovered that service plans were not being consistently updated but failed
                  to implement any strategies to correct this problem.


Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   9
                  In contrast, the States that met this assurance had several practices to ensure
                  the quality of their service plans. For example, one State reviewed service
                  plans multiple times throughout the year and assigned different experts to
                  assess various aspects of the plans. The State also selected a sample of
                  service plans to review to ensure that the services in the plan matched the
                  Medicaid claims submitted for the beneficiaries.
                  Five States did not meet the qualified provider assurance
                  A monitoring system for qualified providers should ensure that all providers
                  meet the State’s licensing and certification requirements, as well as any
                  additional requirements established in the HCBS waiver application for
                  nonlicensed and noncertified providers. CMS officials noted that it is
                  critical to verify that providers are qualified before they render services to
                  beneficiaries. States without adequate systems for monitoring provider
                  qualifications may expose beneficiaries to providers with poor qualifications
                  or criminal backgrounds.
                  CMS found that five States did not have adequate systems to ensure that
                  providers are qualified to render care. Notably, CMS identified two States
                  that allowed caregivers to provide services before the State received the
                  results of criminal background checks. One of these States also allowed
                  providers to self-report whether they were qualified without requiring any
                  documentation to support their assertions. Another State did not review an
                  adequate sample of provider records and, therefore, did not adequately
                  monitor its providers. CMS found that another State did not attempt to
                  verify the qualifications of noncertified providers and that some States did
                  not verify that providers received the training necessary to provide services.
                  In contrast, the States that met this assurance had several practices to ensure
                  that all HCBS providers had appropriate qualifications. For example, one
                  State reviewed provider qualifications and conducted onsite visits with each
                  provider before allowing the provider to enroll in the HCBS program. The
                  State regularly scheduled visits with beneficiaries to assess their satisfaction
                  with providers. It also tracked license expirations electronically,
                  automatically decertifying providers who did not renew their licenses.
                  Several CMS officials stated that using such electronic systems strengthens
                  the monitoring of HCBS providers.
                  Four States did not meet the health and welfare assurance
                  A monitoring system for health and welfare should identify instances of
                  beneficiary abuse, neglect, and exploitation. CMS expects that States will
                  take appropriate action when such instances have been identified and
                  implement prevention strategies based on analyses of trends. Without such
                  monitoring systems, the States are not able to adequately ensure the health
                  and welfare of their beneficiaries.


Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   10
                  CMS found that four States did not meet the health and welfare assurance.
                  Specifically, two of the four States lacked a system—such as an incident
                  tracking system—to catalog and track instances of alleged abuse, neglect, or
                  exploitation of beneficiaries. One of these States relied solely on self-
                  reported data from beneficiary surveys as its only means of such monitoring,
                  which CMS considered insufficient.
                  In the two other States, CMS found problems with the existing incident
                  tracking systems. One of these States did not require that incidents of
                  suspected abuse, neglect, or exploitation be reported, so there was no
                  assurance that such incidents were appropriately tracked. The other State
                  did not have adequate documentation of such incidents or adequate
                  documentation of any followup actions that had been taken.
                  In contrast, the States that met this assurance had several practices to ensure
                  that the health and welfare of beneficiaries were protected. For example,
                  one State interviewed beneficiaries and providers in person and mailed a
                  survey to beneficiaries annually to gauge their satisfaction with the program.
                  If beneficiaries noted concerns, they were relayed to the appropriate program
                  staff for followup. The State also had a system to track and correct incidents
                  of alleged abuse or neglect, as well as a system to collect information on
                  suspicious deaths. Additionally, the State coordinated with other State
                  agencies, when necessary, to review and resolve cases in which
                  beneficiaries’ health and welfare were at risk. Several CMS officials
                  stressed the importance of this interagency coordination, which helps a State
                  track whether an incident has been resolved by another agency.
                  CMS renewed the waiver programs of three States that
                  did not adequately correct problems related to quality of
                  care
                  In instances in which CMS has identified serious problems with a waiver
                  program—such as not meeting an assurance—the State must correct the
                  problems. CMS guidance states that before the agency can approve a
                  program for renewal, it must be confident that the measures that the State
                  has taken, or plans to take, will adequately address the problems.
                  Although CMS renewed the waiver programs in all seven States that did not
                  meet one or more assurances, three of these States did not adequately correct
                  problems that CMS identified during its quality reviews. Not only did these
                  States fail to correct these problems before the renewal of their programs,
                  but two of them still had not adequately addressed the problems almost
                  3 years after renewal, and the third had not adequately addressed the
                  problems over a year after renewal.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   11
                  CMS officials noted that one State had a “pervasive problem” with its
                  approach to quality management and improvement that spanned the State’s
                  many waiver programs. By the time of the program’s renewal, the State had
                  still failed to provide evidence that it had fixed all the problems uncovered
                  by the quality review. Specifically, the State did not demonstrate to CMS
                  that it had made sufficient progress to ensure that service plans were
                  adequate, consistently revised, or updated. Also, it still could not
                  demonstrate that it could verify the qualifications of noncertified providers
                  or that it could adequately document incidents or any followup related to
                  those incidents. In spite of these problems, CMS renewed the program.
                  The second State had provided CMS with plans to make improvements.
                  However, by the time of renewal, it could not demonstrate to CMS that it
                  could monitor whether beneficiaries were receiving all of the services
                  identified in their service plans. In addition, it still could not demonstrate
                  that services were provided by qualified providers.
                  For the third State, CMS officials reported that, although at the time of
                  renewal the State provided evidence of having some monitoring systems, it
                  still could not demonstrate that criminal background checks were reviewed
                  before caregivers were allowed to provide services. In addition, the State
                  still did not appear to have strategies to correct problems uncovered by its
                  existing monitoring systems.
                  None of the three States had made the necessary changes to their waiver
                  programs, even though for two of them almost 3 years had passed since the
                  time of renewal. For the third State, more than 1 year had passed since the
                  time of renewal. CMS officials explained that, although CMS has the
                  authority to terminate programs when States do not meet assurances, it
                  generally does not do so because these programs serve vulnerable
                  beneficiaries who might be left without critical services.
                  CMS did not consistently use the few tools it has to
                  ensure that States correct problems related to quality of
                  care
                  Short of terminating a waiver program, CMS has few tools to ensure that
                  States correct problems found during the quality reviews.30 Furthermore,
                  CMS does not consistently use the tools at its disposal—such as corrective
                  action plans or onsite visits—to ensure that States make necessary changes
                  and comply with the assurances.

                  30
                     Despite CMS’s having placed a moratorium on enrollment in the Alaska waiver programs
                  in 2009, CMS officials reported that the agency needs additional regulatory authority to use
                  such tools in the future.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)     12
                  CMS did not require corrective action plans from three of the
                  seven States that did not meet assurances
                  CMS may require States to develop and implement corrective action plans if
                  they have not corrected problems and cannot ensure the quality of care
                  provided to beneficiaries. Several CMS officials noted that they would
                  require that a State develop a corrective action plan if it did not meet one or
                  more assurances during the quality review. However, of the seven States
                  that did not meet one or more assurances, CMS did not require three to
                  develop corrective action plans. CMS does not have guidance about when to
                  require corrective action plans, what these plans should contain, or how
                  frequently States should report their progress.
                  CMS did not conduct onsite visits with two of the seven States
                  that did not meet assurances
                  CMS guidance recommends that onsite visits be conducted at least once
                  before a waiver program’s renewal and that focused onsite visits (i.e., site
                  reviews focusing on particular issues of concern) be conducted for programs
                  that are not meeting all of the assurances. Despite this, CMS did not conduct
                  any onsite visits with two of the seven States that did not meet one or more
                  assurances. Such visits may be useful in determining the extent to which
                  beneficiaries could be negatively affected by problems found during CMS’s
                  quality reviews. Notably, CMS did conduct onsite visits with six additional
                  States in our review that had met the assurances. Also, CMS did not conduct
                  focused onsite visits with any of the States in our review. Several officials
                  noted that CMS guidance is limited on when and how to conduct onsite
                  visits and that better protocols for how to conduct reviews during these visits
                  would be helpful.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   13
                  CONCLUSION AND RECOMMENDATIONS
                  States must operate their HCBS waiver programs in accordance with certain
                  required assurances, including three related to quality of care. CMS does not
                  directly monitor the delivery of HCBS services to beneficiaries. Rather,
                  CMS requires States to have strong monitoring systems to ensure that (1) the
                  services provided meet beneficiaries’ needs, (2) these services are rendered
                  by qualified providers, and (3) instances of abuse and neglect are identified
                  and addressed. If these assurances are not met, beneficiaries’ health and
                  safety may be at risk.
                  During its quality reviews, CMS found that 7 of the 25 States did not meet
                  1 or more of the 3 required assurances. These States did not have adequate
                  systems to monitor the quality of care provided to beneficiaries. Despite the
                  fact that three of these States did not adequately correct identified problems,
                  CMS renewed their waiver programs. Lastly, CMS did not consistently use
                  its few tools, namely, corrective action plans and onsite visits, to ensure that
                  States correct problems and comply with the assurances.
                  Together, these findings suggest the need for increased oversight by CMS
                  and monitoring by States to ensure that quality care is provided to
                  beneficiaries in HCBS waiver programs. We recommend that CMS:
                  Provide Additional Guidance to States to Help Ensure That They
                  Meet the Assurances
                  CMS should provide additional guidance to States about the elements of
                  strong monitoring systems. As part of this guidance, CMS should identify
                  and provide States with examples of effective practices for meeting each of
                  the assurances, some of which are highlighted in this report. States can use
                  this guidance to improve their monitoring systems and better ensure that
                  their waiver programs provide quality care to beneficiaries. CMS could
                  provide this assistance as a part of its continuing communication with the
                  States.
                  Require States That Do Not Meet One or More Assurances to
                  Develop Corrective Action Plans
                  When States do not meet one or more assurances during the quality reviews,
                  CMS should require them to develop a corrective action plan for each waiver
                  program that fails to meet those assurances. CMS should develop standard
                  protocols for these corrective action plans, including when to require them,
                  what States should include in the plans, and how frequently States should
                  report their progress to CMS. This would enable CMS to hold States more
                  accountable.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   14
                  Require At Least One Onsite Visit Before a Waiver Program is
                  Renewed and Develop Detailed Protocols for Such Visits
                  CMS should require that regional offices conduct an onsite visit at least once
                  before a waiver program’s renewal. CMS should also require regional
                  offices to conduct more frequent onsite visits or focused onsite visits when
                  States do not meet one or more assurances or when States demonstrate
                  continued difficulty in meeting the assurances. By conducting these visits
                  more frequently, CMS would be better able to gauge the extent of any
                  problems noted during its quality reviews and determine whether any
                  progress has been made in correcting these problems.
                  CMS should also provide detailed protocols for both regular and focused
                  onsite visits that include guidelines for when these visits should be
                  conducted. These protocols should also include instructions for conducting
                  these visits, such as how best to assess States’ monitoring systems while
                  onsite.
                  Develop a Broader Array of Approaches to Ensure Compliance
                  With Each of the Assurances
                  CMS has the legislative authority to terminate a waiver program with serious
                  problems but rarely does so, as termination may leave thousands of
                  beneficiaries without critical services. Short of termination, CMS has few
                  tools to ensure that States correct problems. CMS should seek a broader
                  array of approaches to address the continual failure of some States to comply
                  with the assurances. These approaches could include seeking additional
                  legislative authority to issue moratoria on future enrollment in poorly
                  performing States. Other approaches could include seeking legislative
                  authority to withhold a portion of Federal funding when other corrective
                  efforts are unsuccessful.
                  Make Information About State Compliance With the Assurances
                  Available to the Public
                  CMS should make information available to the public about whether
                  States meet each of the assurances during the quality reviews. CMS could
                  summarize this information or publish the final reports detailing the
                  findings of its quality reviews. CMS could also include information on
                  corrective actions taken by States that did not meet the assurances. Public
                  disclosure would further compel States to comply with the assurances and
                  would provide beneficiaries and their families with needed information
                  about the extent to which States have systems to ensure quality care.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   15
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with four of our five recommendations and partially
                  concurred with one. CMS agreed that because of the increase in waiver
                  services and the vulnerabilities of many of the waiver recipients, strong
                  oversight of waiver programs is critical.
                  CMS concurred with our first recommendation and stated that, through a
                  series of bimonthly Quality Forums with the States, it will ensure that
                  providers receive guidance to improve their monitoring systems. CMS
                  concurred with our second recommendation and stated that it will develop a
                  standard protocol for corrective action plans.
                  CMS partially concurred with our third recommendation and stated that it
                  plans to develop a standard protocol for conducting site visits. However, it
                  noted that it reserves the discretion to determine when site visits might not
                  be required. It stated that it intends to evaluate the need for site visits on a
                  case-by-case basis, taking into account the seriousness of the possible
                  assurance failures and the availability of CMS resources.
                  CMS concurred with our fourth recommendation and stated that it will
                  address the issues of intermediate steps for corrections when a State fails to
                  meet an assurance and that it will ensure that all central and regional office
                  staff have knowledge of the options. CMS also stated that it issued a Notice
                  of Proposed Rule Making for the waiver in which it addressed the issue of
                  corrective actions and that it will determine whether legislation is necessary
                  to provide stronger and more viable options. Finally, CMS concurred with
                  our fifth recommendation and stated that it will explore the options for how
                  to best make the disclosure of quality reviews available to the public.
                  The full text of CMS’s comments is provided in the appendix.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   16
                  APPENDIX
                  Agency Comments



                      DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                             Administrator
                                                                                             Washington, DC 20201




               DATE:         APR 1 22012
              TO: 	          Daniel R. Levinson
                             IDspector General
                                                  /S/
               FROM: 	       Mari~n -TaV'eooer
                             Acting Administrator

               SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Oversight of Quality of Care in
                          Medicaid Home and Community-Based Services Waiver Programs"
                          (OEI-02-08-00170)


               Thank you for the opportunity to review and comment on the OIG draft report: Oversight of
               Quality of Care in Medicaid Home and Community-Based Services Waiver Programs
               (OEl-02-08-00170). The purpose of this report was to: I) assess the extent to which States had
               systems in place to ensure the quality of care provided to beneficiaries in home and community­
               based services (HCBS) waiver programs for the aged and disabled; 2) determine the extent to
               which the Centers for Medicare & Medicaid Services (CMS) renewed waiver programs in States
               that did not adequately correct problems related to quality of cai:e; and 3) describe how CMS
               oversees States' efforts to ensure the quality of care provided under these waiver programs.

               As noted by the report, States are increasing their coverage for HCBS over institutional services
               for Medicaid beneficiaries who have chronic needs, and a primary method of delivery for HCSS
               is through 19J5(c) waiver programs. CMS agrees that, because of this increase and the
               vulnerabilities of many of the HCBS waiver program recipients, strong oversight of waiver
               programs is critical.                                          .

               OIG Findings

               The OIG reviewed 33 waiver programs in 25 States that had used the version of the application
               updated in January 2008. .

               States must operate their HCSS waiver progranls in accordance with certain required assurances,
               including three assurances related to quality of care. eMS does not directly monitor the delivery
               of HeBS services to beneficiaries.

               The OIG found that during its quality reviews, eMS found that 7 of the 25 States did not meet I
               or more of the 3 required assurances. These States did not have adequate systems in place to
               monitor the quality of care provided to beneficiaries. In addition, CMS renewed the waiver




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)                     17
Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   18
Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   19
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional office,
                  and Meridith Seife, Deputy Regional Inspector General.
                  Judy Kellis served as the team leader for this study. Other principal Office of
                  Evaluation and Inspections staff from the New York regional office who
                  contributed to the report include Lucía Fort and Shanti Nandiwada; central office
                  staff who contributed include Kevin Farber and Tasha Trusty.




Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver Programs (OEI-02-08-00170)   20
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
